                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




Information was received at NSF that an institution' had begun an investigation into possible
research misconduct by one of their employees2. The allegations made to the institution were 1)
duplicate funding and 2) plagiarism in a proposal submitted to NSF.

The OIG inquiry was referred to the institution, and a report of inquiry from the institution was
received in due course. This report of inquiry concluded that there was no substance to the
allegation of duplicate funding, but potential substance to the allegation of plagiarism by the
institution employee, specifically in a proposal submitted to NSF3. The institution initiated an
investigation, and OIG investigation was referred to the institution.

The institution report of investigation concludes that there is no substance to the allegation of
plagiarism since authorship of the allegedly plagiarized source text cannot be established.

Examination of the documentation provided as part of the institution reports provides no
substance to support the allegation of plagiarism. We concur with the inquiry report that there is
no substance to support the claim of duplicate funding.

Accordingly, the case is closed.




                                                                                   NSF OIG Form 2 (11/02)
